<html>
<title> - ASSESSING THE EFFECTIVENESS OF U.S. CHEMICAL SAFETY LAWS</title>
<body><pre>[Senate Hearing 112-819]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-819

 
        ASSESSING THE EFFECTIVENESS OF U.S. CHEMICAL SAFETY LAWS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SUPERFUND, TOXICS AND
                          ENVIRONMENTAL HEALTH

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 3, 2011

                               __________

  Printed for the use of the Committee on Environment and Public Works




       Available via the World Wide Web: http://www.fdsys.gpo.gov

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
85-224                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0265726d42617771766a676e722c616d6f2c">[email&#160;protected]</a>  


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

       Bettina Poirier, Majority Staff Director and Chief Counsel
                 Ruth Van Mark, Minority Staff Director

       Subcommittee on Superfund, Toxics and Environmental Health

                     FRANK R. LAUTENBERG, Chairman
MAX BAUCUS, Montana                  MIKE CRAPO, Idaho
THOMAS R. CARPER, Delaware           LAMAR ALEXANDER, Tennessee
JEFF MERKLEY, Oregon                 MIKE JOHANNS, Nebraska
KIRSTEN GILLIBAND, New York          JOHN BOOZMAN, Arkansas
BARBARA BOXER, California, (ex       JAMES M. INHOFE, Oklahoma, (ex 
    officio)                             officio)



                            C O N T E N T S

                              ----------                              
                                                                   Page

                            FEBRUARY 3, 2011
                           OPENING STATEMENTS

Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     1
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....    25
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................   111

                               WITNESSES

Owens, Steve, Assistant Administrator, Office of Chemical Safety 
  and Pollution Prevention, Environmental Protection Agency......     4
    Prepared statement...........................................     6
    Responses to additional questions from:
        Senator Boxer............................................    14
        Senator Inhofe...........................................    18
Semrau, Kelly M., senior vice president, Global Corporate 
  Affairs, Communication and Sustainability, SC Johnson & Son, 
  Inc............................................................    29
    Prepared statement...........................................    32
    Responses to additional questions from Senator Inhofe........    41
Goldberg, Steven J., vice president, Regulatory Law and 
  Government Affairs, BASF Corporation...........................    44
    Prepared statement...........................................    46
    Responses to additional questions from Senator Inhofe........    51
Beinecke, Frances, president, Natural Resources Defense Council..    55
    Prepared statement...........................................    57
Dooley, Cal, president and CEO, American Chemistry Council.......    67
    Prepared statement...........................................    70
    Principles for Modernizing TSCA, American Chemistry Council..    74
    Responses to additional questions from Senator Inhofe........    77
Goldman, Lynn R., M.D., M.P.H., dean, professor, Environmental 
  and Occupational Health, The George Washington University 
  School of Public Health and Health Services....................    80
    Prepared statement...........................................    83
    American Bar Association, Section of Environment, Energy, and 
      Resources, Special Committee on TSCA Reform................91-104

                          ADDITIONAL MATERIAL

Statements:
    National Petrochemical & Refiners Association (NPRA).........   113
    Society of Chemical Manufacturer's and Affiliates............   116
    Physicians Committee For Responsible Medicine and People for 
      the Ethical Treatment of Animals..........................119-129
    Society of Toxicology........................................   130
    Consumer Specialty Products Association (CSPA), Grocery 
      Manufacturers Association (GMA) and American Cleaning 
      Institute.................................................   132
    Metropolitan Utilities District..............................   135
Letter, Episcopal Church USA; Evangelical Lutheran Church in 
  America; National Council of Churches USA; Presbyterian Church 
  USA; Union for Reform Judaism; United Church of Christ and The 
  United Methodist Church-General Board of Church and Society...136-138


        ASSESSING THE EFFECTIVENESS OF U.S. CHEMICAL SAFETY LAWS

                              ----------                              


                       THURSDAY, FEBRUARY 3, 2011

                               U.S. Senate,
         Committee on Environment and Public Works,
                    Subcommittee on Superfund, Toxics and  
                                      Environmental Health,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 o'clock a.m. 
in room 406, Dirksen Senate Office Building, Hon. Frank R. 
Lautenberg, (chairman of the subcommittee) presiding.
    Present: Senators Lautenberg, Vitter, Whitehouse, Johanns, 
and Boozman.

 STATEMENT OF HON. FRANK R. LAUTENBERG, U.S. SENATOR FROM THE 
                      STATE OF NEW JERSEY

    Senator Lautenberg. Good morning. This is the first hearing 
of the year of the Subcommittee on Superfund, Toxics and 
Environmental Health.
    In this hearing, we will examine the effectiveness of our 
chemical safety laws, a critical issue that touches the lives 
of all Americans. In this Congress, our goal must be to build 
on our progress during the last progress. Progress. Notice I 
didn't say achievement, I said progress. Over the course of 
four hearings, we uncovered dangerous and costly deficiencies 
in the Toxic Substances Control Act, known as TSCA. This 
subcommittee heard from the Centers for Disease Control, who 
told us that their scientists found 212 industrial chemicals, 
including 9 carcinogens, coursing through American bodies.
    We heard from everyday Americans who shared their 
heartbreaking stories, including two young mothers. One of 
those mothers, Molly Gray, testified about the fear and the 
uncertainty that she experienced when testing revealed that she 
had dozens of industrial chemicals in her body while she was 
pregnant. Twice we heard from EPA Administrator Lisa Jackson, 
who told us under current law that her Agency lacks the tools 
it needs to regulate hazardous chemicals.
    TSCA is so severely flawed that the non-partisan Government 
Accountability Office testified that it is a ``high risk area 
of the law.'' With the Federal Government unable to act and 
families growing more concerned about health risks, at least 18 
States have adopted their own chemical safety laws. In a 
hearing last February, Dow and Dupont, two major chemical 
companies, testified in support of reform, in part because of 
the difficulties they face operating under different rules in 
different States. Since our most recent hearing on this issue 
last October, the political landscape has shifted somewhat.
    But as we will hear today, the urgent need to fix our 
Country's broken chemical safety system has not changed. The 
longer we wait to modernize TSCA, the longer businesses face 
uncertainty about the future, and the longer families will have 
concern about the risks, which products are safe and which are 
not.
    The highly successful global companies represented on our 
second panel today are as eager as we are to give people more 
confidence in the safety of their products. Make no mistake 
about it: chemicals play a crucial role in modern life. They 
are essential to everything from cleaning products that kill 
germs in our homes, schools and workplaces to renewable energy 
sources that reduce our dependence on dirty fuels.
    Most chemicals improve lives around the globe, and they do 
so with no toxic side effects. But some have been linked to 
serious health problems. Studies show that as much as 5 percent 
of childhood cancers, 10 percent of neurobehavioral disorders, 
and 30 percent of childhood asthma cases are associated with 
hazardous chemicals.
    The National Institute of Environmental Health Science 
recently held a 3-day discussion on links between certain toxic 
chemicals and obesity and diabetes. That is why we need 
scientists to evaluate chemicals, determine which uses are safe 
and which are not. That is why we are here today. The companies 
represented have strong standards for evaluating the safety of 
their products.
    SC Johnson & Son was founded 125 years ago, and its 
continued success depends on keeping toxic chemicals out of the 
company's products. Same principle applies to BASF, and many 
other chemical companies. But we must hold all companies to a 
high standard of safety.
    That is why I committing to move TSCA's reform legislation 
in this Congress. In 1996, our pesticides law and the Safe 
Drinking Water Act passed a Republican Congress, and were 
signed into law by a Democratic President. I am confident that 
this Committee can come together to improve our chemical laws 
while allowing the U.S. chemical industry to continue to lead 
the world.
    When I introduced my Safe Chemicals Act last year, the vice 
president of Dupont said that we carefully listened to a range 
of diverse views and sought to strike a thoughtful balance. 
That is what we want, a thoughtful balance. But we want a 
thorough review.
    My colleague, Senator Inhofe, has been very helpful in 
fostering a meaningful dialog with the chemical industry and 
our friends in the other party. I am eager to continue working 
with him and other Senators to develop a risk-based system, 
built on sound science, that protects the health and allows 
companies to continue to thrive.
    I also look forward to continuing to work with responsible 
companies like SC Johnson and BASF that offer constructive 
ideas for modernizing the law. I want to be clear: the status 
quo is not acceptable. We simply must reform our chemical laws. 
I look forward to moving this issue forward in this Congress, 
beginning with today's hearing.
    So I thank those of you who are being witnesses here today, 
and those of you who are here for specific interest. We need 
your help, all of you, and it is not without very deep personal 
interest, I am sure, in all of our lives. I have a grandchild 
who has asthma. Before my daughter takes him to play ball, he 
is a very athletic young man, she checks to see where the 
nearest emergency clinic is. So that is a threat that overhangs 
us, and it should not be. We can do better. I thank you all for 
being here.
    With that, I turn to Mr. Steve Owens, and please introduce 
yourself, Steve, and tell us, give us your testimony.
    [The prepared statement of Senator Lautenberg follows:]

     Statement of Hon. Frank R. Lautenberg, U.S. Senator from the 
                          State of New Jersey

    Good morning. This is the first hearing of the year of the 
Subcommittee on Superfund, Toxics and Environmental Health. In this 
hearing, we will examine the effectiveness of our chemical safety 
laws--a critical issue that touches the lives of all Americans. In this 
Congress, our goal must be to build on our progress during the last 
Congress. Over the course of four hearings, we uncovered dangerous and 
costly deficiencies in the Toxic Substances Control Act, known as TSCA.
    This subcommittee heard from the Centers for Disease Control, who 
told us their scientists found 212 industrial chemicals--including 6 
known carcinogens--coursing through Americans' bodies. And we heard 
from everyday Americans who shared their heartbreaking stories--
including two young mothers. One of those mothers--Molly Gray--
testified about the fear and uncertainty she experienced when testing 
revealed she had dozens of industrial chemicals in her body while she 
was pregnant.
    Twice we heard from EPA Administrator Lisa Jackson, who told us 
under current law her agency lacks the tools it needs to regulate 
hazardous chemicals. TSCA is so severely flawed that the non-partisan 
Government Accountability Office testified that it is a ``high risk 
area of the law.'' With the Federal Government unable to act--and 
families growing more concerned about health risks--at least 18 states 
have adopted their own chemical safety laws.
    In a hearing last February, Dow and DuPont--two major chemical 
companies--testified in support of reform, in part because of the 
difficulties they face operating under different rules in different 
states. Since our most recent hearing on this issue last October, the 
political landscape has shifted somewhat. But as we'll hear today, the 
urgent need to fix our country's broken chemical safety system has not 
changed. The longer we wait to modernize TSCA, the longer businesses 
face uncertainty about the future, and the longer families will face 
confusion about which products are safe and which are not. The highly 
successful, global companies represented on our second panel are as 
eager as we are to give people more confidence in the safety of their 
products. Make no mistake: Chemicals play a crucial role in modern 
life. They are essential to everything from cleaning products that kill 
germs in our homes, schools and workplaces, to renewable energy sources 
that reduce our dependence on dirty fuels. Most chemicals improve lives 
around the globe--and they do so with no toxic side effects. But some 
chemicals have been linked to serious health problems.
    Studies show as much as 5 percent of childhood cancers, 10 percent 
of neurobehavioral disorders and 30 percent of childhood asthma cases 
are associated with hazardous chemicals. And the National Institute of 
Environmental Health Science recently held a 3-day discussion on links 
between certain toxic chemicals and obesity and diabetes. That's why we 
need scientists to evaluate chemicals and determine which uses are 
safe--and which are not.
    As we will hear, the companies represented today have strong 
standards for evaluating the safety of their products. SC Johnson and 
Sons was founded 125 years ago--and its continued success depends upon 
keeping toxic chemicals out of the company's products. The same 
principle applies to BASF and many other chemical companies. But we 
must hold all companies to a high standard of safety. This is why I am 
committed to moving TSCA reform legislation in this Congress.
    In 1996, our pesticides law and the Safe Drinking Water Act passed 
a Republican Congress and were signed into law by a Democratic 
President. I am confident that this committee can come together to 
improve our chemical laws while allowing the U.S. chemical industry to 
continue to lead the world. When I introduced my Safe Chemicals Act 
last year, the vice president of DuPont chemical company said that we 
``carefully listened to a range of diverse views and sought to strike a 
thoughtful balance.''
    My colleague Senator Inhofe has been very helpful in fostering a 
meaningful dialog with the chemical industry and our friends in the 
other party. I'm eager to continue working with him and other Senators 
to develop a risk-based system--built on sound science--that protects 
health and allows companies to continue to thrive. I also look forward 
to continuing to work with responsible companies like SC Johnson and 
BASF that offer constructive ideas for modernizing the law. Let me be 
clear: the status quo is not acceptable. We simply must reform our 
chemical laws.
    I look forward to moving this issue forward in this Congress, 
beginning with today's hearing.

 STATEMENT OF STEVE OWENS, ASSISTANT ADMINISTRATOR, OFFICE OF 
    CHEMICAL SAFETY AND POLLUTION PREVENTION, ENVIRONMENTAL 
                       PROTECTION AGENCY

    Mr. Owens. Good morning, Senator Lautenberg. I am Steve 
Owens, I am the Assistant Administrator for the Office of 
Chemical Safety and Pollution Prevention at the U.S. 
Environmental Protection Agency.
    Thank you for the opportunity to be with you here today to 
discuss modernizing the Toxic Substances Control Act. We 
appreciate your leadership on this issue. As the father of a 
son who has asthma, I very much appreciate your interest in 
that issue as well, Senator.
    As you know, Senator, TSCA regulates chemicals manufactured 
and used in this Country. While TSCA was an important step when 
it was first passed in 1976, it is the only major environmental 
statute that has not been reauthorized since its initial 
passage. TSCA is clearly showing its age, and its limitations. 
Unlike the laws for drugs and pesticides we have in this 
Country, TSCA does not have a mandatory program by which EPA 
must review the safety of chemicals. In addition, TSCA places 
legal and procedural requirements on EPA's ability to request 
the generation and submission of health and environmental data 
on chemicals.
    When TSCA was enacted in 1976, it grandfathered in without 
evaluation whatsoever the more than 60,000 chemicals that 
existed at that time. More than 24,000 additional chemicals 
have been produced since then, with the result that our TSCA 
inventory now lists more than 84,000 chemicals, very few of 
which have actually been studied by EPA for their risks to 
families and children.
    Indeed, TSCA does not provide EPA with adequate authority 
to reevaluate existing chemicals as new concerns arise, or 
science is updated. It does not give EPA full authority to 
require companies to produce toxicity data. As a result, over 
the last 35 years, EPA has been able to require testing on only 
around 200 of the more than 84,000 chemicals that are on the 
TSCA inventory.
    It has also been very difficult for EPA to take meaningful 
action on chemicals found to cause unreasonable risk to human 
health or the environment. Even if EPA has substantial data and 
wants to protect the public against known risks, the law 
creates obstacles to quick and effective regulatory action.
    For example, in 1989, after years of study and nearly 
unanimous scientific opinion, EPA issued a rule phasing out 
most uses of asbestos in products. Yet a Federal court held 
that the rule did not comply with the very complex requirements 
of section 6 of TSCA and overturned most of the Agency's 
actions. EPA has not taken an action under section 6 of TSCA 
since that time, more than 20 years ago.
    In fact, since 1976, only five chemicals have been 
successfully regulated under TSCA's authority to ban chemicals. 
That is 5 out of more than 84,000.
    The problems with TSCA are so significant, as you noted, 
Senator, that the Government Accountability Office has put the 
law on its list of high risk items needing urgent attention. 
TSCA must be updated and strengthened if EPA is to do its job 
to protect public health and the environment. The Obama 
administration has developed a set of principles to help 
modernize TSCA. Let me summarize them briefly. The full texts 
of those principles are attached to the written testimony that 
I submitted, Senator. This is a brief summary of those.
    First, chemicals should be reviewed against safety 
standards that are based on sound science and reflect risk-
based criteria protective of human health and the environment.
    Second, the responsibility for providing adequate health 
and safety information should rest on industry, and EPA should 
have the necessary tools to quickly and efficiently require 
testing or obtain other information from manufacturers without 
the delays and obstacles that are currently in place in the 
law, and without excessive claims of confidentiality.
    Third, EPA should have clear authority to take risk 
management actions when chemicals do not meet the safety 
standard with flexibility to take into account a range of 
considerations.
    Fourth, EPA should have clear authority to set priorities 
for conducting safety reviews of chemicals.
    Fifth, we must encourage innovation and green chemistry and 
support strategies that will lead to safer and more sustainable 
chemicals and processes.
    Finally, Senator, implementation of the law should be 
adequately and consistently funded. Chemical manufacturers 
should support the cost of agency implementation, including the 
review of information provided by manufacturers.
    Mr. Chairman, as you noted, the time has come to bring TSCA 
into the 21st century and give the American people the 
protection against chemical risks they expect and deserve. EPA 
Administrator Lisa Jackson and I look forward to working with 
you and other members of this subcommittee and Congress on this 
very important issue. I will be happy to answer any questions 
you may have.
    [The prepared statement of Mr. Owens follows:]

    [GRAPHIC] [TIFF OMITTED] T5224.001
    
    [GRAPHIC] [TIFF OMITTED] T5224.002
    
    [GRAPHIC] [TIFF OMITTED] T5224.003
    
    [GRAPHIC] [TIFF OMITTED] T5224.004
    
    [GRAPHIC] [TIFF OMITTED] T5224.005
    
    [GRAPHIC] [TIFF OMITTED] T5224.006
    
    [GRAPHIC] [TIFF OMITTED] T5224.007
    
    [GRAPHIC] [TIFF OMITTED] T5224.008
    
    [GRAPHIC] [TIFF OMITTED] T5224.009
    
    [GRAPHIC] [TIFF OMITTED] T5224.010
    
    [GRAPHIC] [TIFF OMITTED] T5224.011
    
    [GRAPHIC] [TIFF OMITTED] T5224.012
    
    [GRAPHIC] [TIFF OMITTED] T5224.013
    
    [GRAPHIC] [TIFF OMITTED] T5224.014
    
    [GRAPHIC] [TIFF OMITTED] T5224.015
    
    [GRAPHIC] [TIFF OMITTED] T5224.016
    
    [GRAPHIC] [TIFF OMITTED] T5224.017
    
    [GRAPHIC] [TIFF OMITTED] T5224.018
    
    Senator Lautenberg. Thank you very much.
    Nothing destroys confidence more than laws that are on the 
books that don't really work. While TSCA was a, I think, a good 
idea, and helped marginally, but therein lines a very serious 
problem, of course, and that is that we haven't been able to 
make progress that would, again, ease the minds of people in 
the Country who are at a stage of pregnancy or frailty at the 
moment, and know that it was caused by something that might not 
have been there.
    Well, we are glad to have you here, Mr. Owens. We have your 
testimony. What we will do is we will permit you to go for the 
moment unscathed, and we will submit our questions in writing 
and get to our next panel. We thank you very much for being 
here.
    Mr. Owens. Mr. Chairman, I hope this serves as a model for 
future hearings in which I participate.
    [Laughter.]
    Mr. Owens. I appreciate your interest.
    Senator Lautenberg. This isn't a reorganization of the way 
we function here. It is to be another version of TSCA, far less 
harmful, but having a law that doesn't cover the bases.
    I want to just ask one question. That is, is it possible to 
really fulfill the mission that we have with TSCA in its 
current form?
    Mr. Owens. Well, no, Senator, we do not believe so at EPA, 
and the Administration does not believe so. That is why we 
developed the statement of principles that I mentioned, and 
that we submitted for the record here today. As I mentioned, 
there are a number of problems with the way the law is written, 
the number of obstacles it creates to our ability to, in the 
first instance, gather data about potential risks presented by 
chemicals, and then to take action on chemicals, if we 
determine that there are risks there.
    In addition, there are challenges with the way the law 
works in terms of the findings that we have to make under the 
law before we can take action. In addition, there are very 
serious problems with the way that the provisions relating to 
the submission of confidential business information are treated 
in the law, and the way that the Agency has to deal with CBI, 
as it is called, once it is submitted to us.
    Senator Lautenberg. Yes, the recommendations made seem 
particularly obvious, not the least of which is to provide the 
resources for the Agency that conducts the program that it 
does, to make this reform attempt effective.
    I said I wasn't going to, but you are someone who speaks 
with authority and experience. I just want to be sure. There 
are 18 States I mentioned in my comments that have laws 
governing chemicals, and 30 have already announced a new 
chemical legislation for 2011. In a State by State approach 
like this, do we risk having so much confusion around the 
Country that we will not be able to effectively do what we want 
to do, and that is to make sure that people aren't endangered 
by chemicals that are in products and so forth? I see this as a 
problem, not only for the reality that we face, if people are 
worried about their offspring and about their own health, but 
also for businesses who want to develop products and that may 
face challenges in the courts, litigation, et cetera, and 
brought in different States because one is thought to be an 
easier target there than in another place. Is that a concern?
    Mr. Owens. Yes, Senator. As you know, the Administrator is 
a former State environmental agency director, I am a former 
State environmental agency director. We and others at the 
agency have a great deal of respect for the interests of States 
in protecting the health and safety of their citizens. We think 
that one reason why States are stepping up to the plate and 
beginning to take action on chemicals is because the Federal 
Government hasn't done so. The reason we haven't done so to a 
significant degree is because of the shortcomings of the 
existing Toxic Substances Control Act.
    We want to ensure that when TSCA reform is being discussed 
by Congress that the States have a seat at the table. They are 
perfectly capable of representing their interests here and 
making sure that the reasons for their actions are taken into 
account. But until we have TSCA reform, and until EPA has the 
ability to do the job that the American people expect us to do, 
I think we are going to continue to see action by States on 
chemicals across the Country.
    Senator Lautenberg. The question arises also, what might be 
the influence on the American economy if we get the system 
working as we would like to have it operate? Can there be a 
salutary effect?
    Mr. Owens. Senator, we think that it will have a positive 
effect on industry and on the economy if we have an effective 
Act that reviews chemicals in this Country, subject to a risk-
based safety standard, and gives the EPA the ability and the 
tools we need to do the job the American people expect.
    I know for example, a lot of discussions have centered on 
how to not only maintain but encourage innovation, for example, 
and less toxic substances and green chemistry in products that 
the American people are demanding to have now. Many consumer 
products, manufacturers, many retailers are asking that the 
manufacturers provide safer substances for inclusion in those 
products, because their customers are demanding them.
    We believe that the more we have the ability to provide 
safer chemicals, the more EPA has the ability to give the 
American people assurances that the chemicals that they and 
their children are exposed to every day and the products that 
include those chemicals are in fact safe, the better off we 
will be, certainly from a health and safety perspective, but 
also from an economic perspective as well.
    Senator Lautenberg. The reason that I turned around is that 
we knew that, we learned that Senator Vitter was on his way, 
and I wanted to give him a chance to make a statement, then ask 
a question, if we don't take too much time.
    Senator Vitter.

STATEMENT OF HON. DAVID VITTER, U.S. SENATOR FROM THE STATE OF 
                           LOUISIANA

    Senator Vitter. Thank you, Mr. Chairman. I apologize to 
everyone for being late. I was rushing back from the National 
Prayer Breakfast.
    Thank you, Mr. Chairman, and thank you for holding this 
important hearing. I appreciate the opportunity to discuss with 
you and the witnesses this important topic.
    Like Senator Lautenberg's home State, mine, Louisiana, owes 
a significant number and portion of very good-paying jobs to 
this industry. So again, I would like to thank everyone here 
for their work.
    The first thing I would like to do is ask unanimous consent 
that the written testimony of the National Petrochemical and 
Refiners Association and that of the Society of Chemical 
Manufacturers be submitted for the record.
    Senator Lautenberg. Without objection.
    Senator Vitter. Thank you.
    [The referenced information follows on page 113.]
    Senator Vitter. As we move forward with this discussion, 
the main priority I want to stress is the importance of basing 
everything on sound and rigorous science. We must ensure the 
best possible protection of U.S. citizens in an effort to 
achieve the overarching goals of ensuring human health and 
safety in a safe environment. We also must ensure that we 
remain and become more competitive in the industry and the 
global marketplace, because that is our challenge now, not 
competition between States, but competition in the global 
marketplace, certainly including China and India. The key to 
achieving all of these goals has to be sound and rigorous 
science.
    With that in mind, I have been highlighting and stressing, 
and will continue to, six principal, overarching concepts that 
I think need to be at the heart of TSCA reform. Very briefly, 
they are these.
    No. 1, I think EPA needs to redo its inventory of chemicals 
in commerce. That inventory now is 80,000 chemicals. There 
aren't 80,000 chemicals in significant commerce. It is probably 
closer to a quarter of that. So we need to figure out what 
those 20,000 or so are, and then focus on that, which is the 
real universe of challenge and problem.
    No. 2, I think a European registration, evaluation and 
authorization of chemical substances, a REACH-style program, 
would threaten to kill innovation in the United States, and is 
a real recipe for hamstringing small- and medium-size 
manufacturers in particular.
    No. 3, I think assuming that REACH is somehow the wave of 
the future is really premature, and could actually impair human 
health and safety by preventing critical positive, safe 
products from entering into the marketplace.
    No. 4, if EPA ever decides to use any given study as a 
reason for limiting or terminating the use of certain 
chemicals, I think the results of that study, absolutely need 
to be repeatable and proven in supporting research.
    No. 5, I think the peer review process needs to ensure that 
the peers are absolutely independent. This means that cherry-
picking of research by activists in Federal agencies needs to 
end as well.
    No. 6, if EPA is going to decide to utilize resources to 
re-review a chemical prior to the otherwise established 
scheduled review period, as it has recently, that needs to be, 
again, to come back to my central theme, based on sound 
science, not simply a New York Times article that quite frankly 
uses politicized science. I am specifically referring to what I 
think happened in the episode about atrazine.
    So I hope these six principles will help guide us in this 
important challenge of TSCA reform, and I look forward to 
working with the Chairman on that challenge. Thank you, Mr. 
Chairman.
    Senator Lautenberg. Thank you, Senator Vitter.
    Senator Boozman, welcome. We know that you are brand new 
here. I was once brand new here. The buildings were about the 
same, but little else.
    [Laughter.]
    Senator Lautenberg. We invite you to take 5 minutes, 
please, and use it either for an opening statement or for 
asking questions.
    Senator Boozman. Thank you, Mr. Chairman. It is a pleasure 
to be here, and we do appreciate your leadership.
    I think what I would like to do is just ask some questions, 
if that is OK. I would like to start off with a fairly broad 
question, and then hope that you will address it. Maybe you can 
followup for the record with more specifics.
    I would like to get at one of my fundamental concerns, and 
that is, how can we update TSCA to ensure EPA has the ability 
to protect human and environmental health but also protect 
jobs, small businesses and the ability of manufacturers to 
compete against China and other countries? As you know, this is 
really, I think, one of the overriding problems that we are 
facing. Where do you draw the balance?
    Mr. Owens. Thank you, Senator, for the question. Thank you, 
Senator Vitter, for your statement as well.
    I think you will hear some discussion of that on the next 
panel, with the representatives from industry and others that 
are here. We have had a lot of very good conversations with 
them about not only the process, but the specifics of reforming 
the Toxic Substances Control Act.
    As I mentioned in my oral statement and I submitted with my 
written statement, the Administration has developed a set of 
principles, roughly half a dozen or so principles that outline 
what we think are, in very broad terms, the concepts that 
should be embodied in a modernized Toxic Substances Control 
Act. One of those principles talks about encouraging innovation 
and ensuring that we take a variety of considerations into 
account when we are conducting a risk-based safety review of 
chemicals. That includes costs, that includes impacts on 
disproportionately affected populations.
    But also understand that we are in a globally competitive 
environment in terms of the issues that we need to be 
considering when we are looking at chemical manufacturing in 
this Country. I don't believe you were in the room when Senator 
Lautenberg asked a similar question a moment ago, but we 
believe that a reformed TSCA that, as you indicated, does 
protect the health and safety of the American people is in the 
best interest of industry. That is why the ACC and the Consumer 
Specialty Products Association and individual companies that 
are here today have endorsed TSCA reform, have articulated 
their own principles.
    We have different perspectives on specific issues related 
to TSCA reform, but we believe that because of the way that we 
think that innovation can be encouraged, to produce safer 
chemicals, to invest in green chemistry and to meet consumer 
demand that is growing in this Country, that we have products 
that the American people have confidence in, that a revitalized 
and reformed TSCA will be good for the economy and good for 
American industry.
    Senator Boozman. So I guess a little bit more specific, 
then, are there any specific problems that you can tell us 
related to TSCA that you would like to get fixed? If we don't 
pass a bill, what kind of legal authority and direction does 
EPA have to address those kinds of problems?
    Mr. Owens. Thank you, Senator, for the question.
    The principles that the Administration has developed 
identify, as I indicated, broad areas within TSCA that we think 
need to be addressed. I think first and foremost, the safety 
standard, the review standard under which chemicals are 
evaluated by EPA needs to be addressed. I think there is broad 
agreement, certainly among industry and the environmental 
community that there needs to be some sort of risk-based 
standard there, in contrast to the current law, which really 
has no safety standard in it.
    That EPA needs to have the ability to get information from 
industry more efficiently and more effectively than we 
currently have. Right now, there is no obligation on the part 
of manufacturers of chemicals to provide information to EPA, 
and if we decide that we need information in order to better 
evaluate a chemical, we have to go through a lengthy, formal 
rulemaking process that can take years before we even get basic 
data on chemicals.
    There are issues associated with the way the confidential 
business information is submitted. We absolutely respect and 
understand the need to keep certain types of information 
confidential to protect trade seekers, to protect formulation 
processes and things like that. But it has been grossly over-
used, so much now that we have a list called the TSCA 
inventory, which now has 84,000 chemicals. One of the things we 
do have to look at, as Senator Vitter said, is how we make that 
list more realistic. But there are 84,000-plus chemicals on 
that list.
    The identify of 17,000 of those chemicals is currently 
considered confidential. There are lots of reasons for that, 
but if you stop and think about that, the identity of almost a 
fifth of all the chemicals on the Toxic Substances Inventory 
are confidential, the American people don't know what they are, 
you don't know what they are unless you go through all the 
training for reviewing CBI and things like that.
    Then last but not least, we need to have an effective way 
for funding the kinds of safety reviews and other operations 
that will be needed if we are going to revitalize the Toxic 
Substances Control Act. We have had some very productive 
discussions with the business community, including many of the 
people who will be testifying here today about a fee structure 
or something like that. What would be a reasonable fee would 
depend in part on what the requirements are for the Agency and 
what the expectations are.
    But I think there is a general agreement that we need to 
figure out a better way to provide the kind of resources that 
we are going to need to do the job the American people expect 
us to do.
    Senator Boozman. Thank you, Mr. Chairman.
    Senator Lautenberg. Thanks very much, Senator Boozman.
    I didn't mean to cut you short, but we have several 
witnesses that are going to testify. Of course, you can submit 
questions in writing, which will be, I assure you, will be 
properly taken care of.
    Thank you very much, Mr. Owens. I have a couple more 
questions I will also submit for the record.
    I now would like to call up the second panel. That would 
include, my competent assistant has adopted the role of being 
my microphone alert person. I am neglectful, because I always 
think I talk too loud. My wife confirms that, by the way.
    [Laughter.]
    Senator Lautenberg. But welcome. We would ask Kelly Semrau, 
Steve Goldberg, Frances Beinecke and Cal Dooley and Dr. Lynn 
Goldman to come to the table. We welcome you.
    I will take a moment and I want to enter into the record 
two letters in support of reforming TSCA. The first comes from 
CEOs of trade associations representing over 300 companies that 
together do at least $2 trillion in revenue every year. The 
second comes from a wide range of faith groups, including 
Presbyterian, Episcopal and United Methodist churches, and the 
Union for Reformed Judaism. One of the things that I am going 
to look to you for as we go through is to ask in broad terms 
whether or not it is believed if you have any contact with 
companies that operate abroad, in Europe in particular, and ask 
you if their standards, the question is being raised now, but 
their response is not necessary until we get to the question 
period, whether or not standards for safeguarding people 
against dangers from chemicals are any less demanding than that 
which we might have for America, despite that fact that so many 
of these companies are operating at record levels with record 
profits to support that.
    Now with that unbiased question, I ask you, Ms. Semrau, to 
testify. We thank you very much. You are vice president for 
Global Corporate Affairs, Communication and Sustainability, for 
SC Johnson & Son. We thank you for being here.

  STATEMENT OF KELLY M. SEMRAU, SENIOR VICE PRESIDENT, GLOBAL 
CORPORATE AFFAIRS, COMMUNICATION AND SUSTAINABILITY, SC JOHNSON 
                          & SON, INC.

    Ms. Semrau. Thank you, Chairman Lautenberg and members of 
the subcommittee. I am very pleased to be here today to support 
modernizing U.S. chemical management policies.
    My name is Kelly Semrau, and I am senior vice president of 
Global Corporate Affairs, Communication and Sustainability at 
SC Johnson. I am also a mother of two beautiful children, one 
of whom is an asthmatic.
    One hundred twenty-five year-old, SC Johnson is a family-
owned and managed company, with the fifth generation of the 
Johnson family, Dr. Fisk Johnson, as our Chairman and CEO. We 
are one of the world's leading manufacturers of home cleaning, 
home storage, air care and insect control products. We market 
such leading brands as Glade, Off, Pledge, Raid, Scrubbing 
Bubbles, Shout, Windex and Ziploc in the United States and 
beyond.
    We employ 12,000 people globally with many employees based 
here in the United States. We market our products in virtually 
every country around the world. Hopefully, many of you are 
already familiar with our company. If you are, then you know 
that doing what is right for consumers by working to safeguard 
the environment and protect human health has been a part of our 
company's ethic for generations. It is a value we live by every 
day.
    Let me cite two brief examples for you. In 2001, we 
launched our patented, award-winning Greenlist<SUP>TM</SUP> 
process to enable us to select ingredients for our products 
that have a more desirable human health and environmental 
profile. Today, we use Greenlist<SUP>TM</SUP> to rate more than 
95 percent of our ingredients across 19 different ingredient 
categories, and our scientists are continually exploring adding 
additional categories.
    In 2009, we announced an industry-leading ingredient 
disclosure program that grew out of Greenlist<SUP>TM</SUP> and 
is designed to bring transparency to our products by sharing 
ingredient information with consumers through our Website, on 
product labels and a toll-free telephone number. Yet by no 
means are we a perfect company. Our commitment to putting the 
health and well-being of our consumers first is what informs 
the work we do every day at SC Johnson, and the perspectives we 
are developing on TSCA modernization.
    While we review TSCA as a chemical statute and not a 
product-related statute, we strongly support efforts to 
modernize the current law for several reasons. We believe it 
makes good business sense to update the law while protecting 
the spirit of innovation that lies at the heart of SC Johnson, 
our industry and the U.S. economy. First, our products are 
probably in every home, and on hundreds of thousands of store 
shelves across the Country. But more important to us is the 
fact that the Johnson family name is on every company product, 
and has been for five generations.
    Since we go to great lengths to evaluate the ingredients 
that go into our products and study their related exposures, 
consumers and their families can be confident about using our 
products. But some gaps exist in the data that is available to 
us about chemicals used in commerce. Modernizing TSCA would 
enable us to examine where these data gaps occur and how they 
can be filled most effectively.
    Second, in the absence of Federal legislative action, the 
States have begun to adopt their own chemical management 
programs. We market products in all 50 States. Complying with 
as many as 50 different State chemical management policies will 
only create uncertainty in our markets and costly 
inefficiencies. We believe a modernized Federal TSCA statute 
will lessen the perceived need for chemical regulation on a 
State-by-State basis.
    Third, chemical regulation is changing rapidly around the 
globe. Just look at Europe's REACH, countries like Canada and 
China. We need to be on pace with such global developments, and 
our Government must be a global leader in chemical policy. 
Others on the panel will describe industry positions on other 
key areas of the debate, including the need to prioritize 
chemical assessments, update the safety standard, and apply the 
best available science. We too, believe, these are vital 
elements and urge you to consider them as you develop 
legislation to update TSCA.
    In closing, I would like to thank the Chairman and members 
of the subcommittee for this opportunity to share our views. SC 
Johnson pledges to work with you to develop responsible, 
workable changes to TSCA that will garner broad public and 
industry support and make the United States a global leader in 
chemical management policy.
    For the record, I am providing the subcommittee with a more 
comprehensive written statement regarding SC Johnson's history, 
sustainability programs and rationale for supporting TSCA 
reform. I look forward to your questions.
    [The prepared statement of Ms. Semrau follows:]

    [GRAPHIC] [TIFF OMITTED] T5224.019
    
    [GRAPHIC] [TIFF OMITTED] T5224.020
    
    [GRAPHIC] [TIFF OMITTED] T5224.021
    
    [GRAPHIC] [TIFF OMITTED] T5224.022
    
    [GRAPHIC] [TIFF OMITTED] T5224.023
    
    [GRAPHIC] [TIFF OMITTED] T5224.024
    
    [GRAPHIC] [TIFF OMITTED] T5224.025
    
    [GRAPHIC] [TIFF OMITTED] T5224.026
    
    [GRAPHIC] [TIFF OMITTED] T5224.027
    
    [GRAPHIC] [TIFF OMITTED] T5224.028
    
    [GRAPHIC] [TIFF OMITTED] T5224.029
    
    [GRAPHIC] [TIFF OMITTED] T5224.030
    
    Senator Lautenberg. Thank you very much.
    Now, Mr. Steve Goldberg.

STATEMENT OF STEVEN J. GOLDBERG, VICE PRESIDENT, REGULATORY LAW 
            AND GOVERNMENT AFFAIRS, BASF CORPORATION

    Mr. Goldberg. Thank you, Mr. Chairman and members of the 
Committee. Thank you for the opportunity to testify today. My 
name is Steve Goldberg, and I am vice president and Associate 
General Counsel for Regulatory Law and Government Affairs at 
BASF Corporation.
    BASF Corporation, headquartered in Florham Park, NJ, Mr. 
Chairman, is the North American arm of BASF SE, the world's 
largest chemical company. Senator Vitter, our largest single 
manufacturing site is in Louisiana, as you well know.
    In the United States, BASF has operations in 31 States and 
has over 15,000 employees. Mr. Chairman, thank you for your 
kind words about BASF. We do believe that safety of our 
products is of paramount importance, and one of our principal 
pillars for BASF globally is sustainability. Sustainability as 
it relates to safety, environment and also economic 
sustainability.
    BASF strongly supports modernization of TSCA. It is 
necessary to ensure consumer confidence in the products of our 
industry, to avoid the proliferation of State and local laws 
that can inhibit commerce, and to bring TSCA into the 21st 
century with its new technologies and scientific techniques.
    In short, TSCA modernization is a business need as well as 
a societal one.
    Modernization, however, must reflect, as you have said, 
Senator Lautenberg, the importance of the chemical industry to 
society and the need to maintain and indeed, encourage, 
innovation. Solutions to some of the key societal issues we 
face, climate, health, energy efficiency, alternative energy 
and feeding a growing population sustainably come from the 
products of the business of chemistry.
    TSCA modernization needs to be informed by what works well 
and does not work well in TSCA now, as well as by what works 
and doesn't work in other chemical management systems around 
the world. BASF as the world's leading chemical company, is 
willing to devote its expertise and experience on these points 
to help inform Congress as it works toward modernizing TSCA.
    Most importantly, I believe that there is more than unites 
various stakeholders in the TSCA debate than divides them when 
it comes to TSCA modernization. I have set forth in more detail 
in my written testimony those points that I think do have 
consensus among stakeholders. These are based upon principles, 
documents that have already been put forth. There are a number 
out there. Mr. Owens talked about EPA, American Chemistry 
Council, Consumer Specialty Products Association, American 
Cleaning Institute, and the principles enunciated by Richard 
Dennison at EDF. I have looked at these, and while the language 
is my own, I haven't necessarily asked for concurrence from 
these groups, but I do believe within broad parameters, those 
principles provide a basis for recognition of the common goals 
that unite rather than divide stakeholders.
    My purpose in setting these forth is not to think that 
principles are an end in themselves. I am not naive and I do 
understand that the devil is in the details. But if we are to 
reach bipartisan consensus and end up with TSCA modernization 
that succeeds, it is vital that it be based on common goals 
that stakeholders from all sides share. This can only help to 
crystallize the issues that need to be addressed in Congress.
    Let me highlight just a few of those principles that I 
think unite stakeholders, and many of them were talked about by 
Mr. Owens and the committee. First, I think there is strong 
support for a strong Federal system of chemical regulation and 
for the important role that EPA must play in chemical safety 
assessment. From my view, this can reduce or eliminate the need 
for multiplicity of State or local actions and most especially, 
provide confidence to consumers in the products they use.
    There is consensus that safety assessment should be risk-
based, that is, taking into account both toxicological 
properties and exposure. In this regard, a number of the 
downstream associations we work with have come forth with 
concrete proposals on providing use data to inform the safety 
assessment of chemicals.
    Finally and most importantly, TSCA modernization must be 
done in such as way as to allow it to succeed. Modernization 
that fails to provide consumer confidence in the products of 
the business of chemistry does industry no good. Nor will TSCA 
modernization succeed if it fails to provide resources needed 
to achieve its ends, or is so overly ambitious that it cannot 
meet its goals. It will not succeed if it is not based on sound 
science and risk assessment principles, nor if it stifles 
innovation or unreasonably delays access to needed 
technologies.
    This is a most urgent need, that TSCA modernization be 
practical, achievable, protective, and if I may use that 
perhaps overly used word these days, sustainable.
    Thank you for the opportunity to testify. I look forward to 
your questions.
    [The prepared statement of Mr. Goldberg follows:]

    [GRAPHIC] [TIFF OMITTED] T5224.031
    
    [GRAPHIC] [TIFF OMITTED] T5224.032
    
    [GRAPHIC] [TIFF OMITTED] T5224.033
    
    [GRAPHIC] [TIFF OMITTED] T5224.034
    
    [GRAPHIC] [TIFF OMITTED] T5224.035
    
    [GRAPHIC] [TIFF OMITTED] T5224.036
    
    [GRAPHIC] [TIFF OMITTED] T5224.037
    
    [GRAPHIC] [TIFF OMITTED] T5224.038
    
    [GRAPHIC] [TIFF OMITTED] T5224.039
    
    Senator Lautenberg. Thank you, Mr. Goldberg.
    Ms. Beinecke, we welcome you, and note that you are the 
president of the Natural Resources Defense Council. Thank you 
for doing that task, and thank you for being here today. Please 
proceed with your testimony.

  STATEMENT OF FRANCES BEINECKE, PRESIDENT, NATURAL RESOURCES 
                        DEFENSE COUNCIL

    Ms. Beinecke. Thank you, Chairman Lautenberg and members of 
the committee. Thank you for inviting me to appear this 
morning. My name is Frances Beinecke, and I am the president of 
the Natural Resources Defense Council.
    I am pleased that this hearing is being held so early in 
the 112th Congress. Achieving meaningful reform of TSCA is a 
high priority for NRDC, and we look forward to working with 
members of this committee, individual companies, and other key 
stakeholders to fix this broken law.
    The truth is, whether or not Congress is able to enact TSCA 
reform legislation, the landscape of chemical regulation is 
already changing dramatically in the United States and around 
the world. Over the last several years, 18 States have adopted 
controls on toxic chemicals, nearly all with strong bipartisan 
support. More than 30 States will consider additional 
protections this year.
    The rest of the world is moving ahead as well, with reform 
efforts planned or already underway in the European Union, 
Japan, China, Canada, Taiwan, South Korea and Israel.
    TSCA has many serious flaws that have made it one of the 
greatest failures of our modern environmental laws. These 
include the original grandfathering of 62,000 chemicals as 
safe, severe constraints on EPA's ability to require testing by 
chemical manufacturers, even greater limits on EPA's ability to 
take action to protect the public from chemicals known to cause 
harm, limits on EPA's ability to obtain the information 
necessary to review a new chemical's safety, and little or no 
publicly available information about most chemicals, including 
their uses, potential effects on human health, or the 
environment, and likely sources of exposure.
    Meanwhile, over the last 35 years, as EPA has been largely 
paralyzed, our understanding of the impacts of chemicals in our 
bodies has greatly expanded. This includes the recognition that 
children, pregnant women and the fetus are more vulnerable to 
exposure to toxics, the understanding that some chemicals can 
alter our hormonal systems, even in very small doses, the 
scientific realization that the timing of exposure can be as 
important as the dose, and the potential for the effects of 
chemical exposure to be passed to future generations.
    We made a mistake 35 years ago when we grandfathered those 
62,000 chemicals with no requirement of meeting a health 
standard or being subject to future testing. Two generations 
later, we find ourselves with hundreds of chemicals in our 
bodies, some already known as carcinogens or neurotoxins, and 
with rising rates of cancer, development and learning 
disabilities, reproductive problems, birth defects and other 
disorders.
    I want to focus a moment on the disease with which I have 
direct personal experience, cancer. The statistics on cancer 
are shocking. It is the second leading cause of death in the 
United States. One of every two men will develop an invasive 
cancer during their lifetime, while one in four will die from 
their cancer. In women, one in three will develop a cancer over 
their lifetime, and one in five will die.
    The issue of cancer is very personal for me, as I know it 
is for probably everyone in this room. Ten years ago, I was 
diagnosed with breast cancer. I had chemo, radiation, went 
through the treatment. My husband at the same time was 
diagnosed with proState cancer. So we had two of the most 
common cancers that the American public experiences.
    For 10 years, I have had a conversation with my oncologist 
on what are the causes, and how to prevent exposures for the 
American public. It is an ongoing conversation. I grew up in 
Summit, NJ. I have no cancer in my family, no history of 
cancer. So I am one of the one in three, and I am one of the 
lucky ones, because I am here to tell my story. I feel 
fortunate that not only can I tell my story, but I can be an 
advocate for reform as we go forward.
    I suspect few people here today have not lost someone they 
love to cancer. The point of course is that not all of these 
cases of cancer are caused by toxic chemicals. But we do know 
that there are a significant number of cancer-causing chemicals 
produced in high volumes to which people are widely exposed, 
and under TSCA, EPA can do almost nothing about them. The 
American people do not want to be exposed to chemicals linked 
to cancer, leaning disabilities or infertility, and then take 
the chance that there won't be a problem 10, 20 or 30 years 
down the road, or down the road for their children or 
grandchildren. Your action may not help my daughters who are at 
reproductive age, but I certainly hope they will help their 
children.
    We now face a tall order. We need to determine which 
chemicals that are used in commerce are safe. We need to break 
free of the legal restrictions and red tape that have prevented 
EPA from quickly reducing exposure to those that have strong 
evidence of harm and widespread exposure. States will continue 
to act in the face of inaction at the national level while 
public trust in the safety of numerous products will continue 
to decline. That prospect should be enough to keep everyone at 
the table until we can reach agreement on how to reform this 
law.
    I view this hearing as part of the effort to tackle TSCA 
reform, and I want to thank you again for being invited to 
testify and participate. I look forward to working with 
colleagues across both the environmental community and in 
industry to work toward a solution to this. Thank you very 
much, and I look forward to your questions.
    [The prepared statement of Ms. Beinecke follows:]

    [GRAPHIC] [TIFF OMITTED] T5224.040
    
    [GRAPHIC] [TIFF OMITTED] T5224.041
    
    [GRAPHIC] [TIFF OMITTED] T5224.042
    
    [GRAPHIC] [TIFF OMITTED] T5224.043
    
    [GRAPHIC] [TIFF OMITTED] T5224.044
    
    [GRAPHIC] [TIFF OMITTED] T5224.045
    
    [GRAPHIC] [TIFF OMITTED] T5224.046
    
    [GRAPHIC] [TIFF OMITTED] T5224.047
    
    [GRAPHIC] [TIFF OMITTED] T5224.048
    
    [GRAPHIC] [TIFF OMITTED] T5224.049
    
    Senator Lautenberg. Thank you very much, Ms. Beinecke. 
Forgive the break in the routine, but you were correct, 
obviously, in an observation that so many of us have 
experienced directly or indirectly, have experienced the onset 
of cancer. My father died when he was 43, and he was pure about 
conditions that surrounded his health and well-being. But he 
worked in the factory. People who worked there often came down 
with cancer, as did my father's brother, my uncle and my 
grandfather.
    What I experienced, something with lymphoma last year, and 
I am told by the doctor the only thing that remains is a change 
in hairstyle. But other than that, everything else is pretty 
good.
    Thank you very much.
    Mr. Dooley, may I invite you to give your testimony.

STATEMENT OF CAL DOOLEY, PRESIDENT AND CEO, AMERICAN CHEMISTRY 
                            COUNCIL

    Mr. Dooley. Thank you, Mr. Chairman and members of the 
committee. I am Cal Dooley, I am president and CEO of the 
American Chemistry Council.
    First let me State very clearly that the American Chemistry 
Council supports the modernization of the Toxic Substance 
Control Act. The member companies of ACC and the chemical 
industry at large are proud of our commitment to the safe use 
of the chemicals we manufacture that are in 96 percent of 
consumer products. We are proud of our leadership in developing 
the innovations that enhance the quality of lives of citizens 
around the world, and the role our products play in enabling 
everyone to live more environmentally sustainable lifestyles. 
We are proud of the 800,000 high-paying, high-skilled jobs that 
our industry provides in the United States, and our industry's 
almost $675 billion contribution to our GDP.
    ACC has been joined by a broad coalition of value chain 
partners, including manufacturers and retailers, that chemical 
management policy is essential to innovation and growth in 
every sector in our economy. A modern TSCA must be based on 
today's technology and should be crafted as new technologies 
and developments in science emerge. It should incorporate 
scientific objectivity, prioritize so we identify data and 
information needs, meet and assess risk based on what chemical 
is actually used for. We should maintain a foundation of TSCA's 
review of new chemicals. We should protect intellectual 
property but provide for greater transparency, so consumers, 
policymakers and the industry can make sound decisions. We need 
to remove the motivation for States and cities to pass 
individual laws that are creating a disjointed national market.
    But we must get it right. We must strike the right balance. 
I don't know how many of you read the Wall Street Journal 
yesterday, but there was an article that kind of summed up this 
challenge. The title of it was, ``U.S. Firms-China Locked in a 
Major War Over Technology''. I also have recently become aware 
of what has happened in the application for patents for 
chemicals. The United States historically has been the leader 
in securing chemical patents. But just in the last couple of 
years, we have been eclipsed by China. So when you look at the 
challenge we face here, it is how can we establish as balanced 
an approach to the modernization of TSCA that also protects our 
ability to lead.
    The divergence that has happened in our current regulatory 
environment, if we create a system that adds inappropriate 
regulatory burdens and creates even greater uncertainty, we are 
going to see this trend increase and accelerate between our 
ability to maintain our innovation and competitiveness with 
China. Modernizing TSCA is the right way, is an opportunity to 
do that and help the United States maintain its leadership.
    So much of the discussion to date has pitted innovation 
against safety. That is simply not the right way to look at it. 
We can do both. The principles that ACC put forth are a 
framework for doing that, and ensuring that the U.S. chemical 
industry can compete internationally.
    At the core of our principles is the need for a risk-based 
safety standard that assess chemicals based on what they are 
actually used for. We shouldn't hold a chemical that might be 
used in a solar cell similar to this that is going to be 
installed in someone's roof and used in maybe hundreds of other 
industrial applications to the same standard applied to a 
chemical that is used in a pharmaceutical, or in a pesticide 
that is applied to the food that we are going to consume.
    We should assess the safety of industrial chemicals based 
on the exposure resulting from their intended use. This is the 
kind of rational, reasonable approach that will ensure safety 
and will also mean innovations developed by U.S. companies will 
ultimately make it through the regulatory process in a 
timeframe that global competition requires. Our competitors 
aren't going to wait for us.
    In the next year or so, the world's population will 
increase to 7 billion people. In 20 or 30 years, we will add 
another 2 billion people to our planet. We are facing critical 
challenges to provide the water, food and energy that will be 
required to meet this growing demand. Chemistry and the 
chemical industry will be critical to meeting this tidal wave 
of demand. Chemicals will make water supplies safe for 
consumption, chemicals will play an instrumental role in 
increasing agriculture productivity. The chemical industry will 
continue to be at the forefront of the development of 
innovations and ensure our houses, offices, factories and cars 
are more energy-efficient.
    The chemical industry will continue to develop the 
innovations that allow solar panels and other alternative 
energy technologies to more efficiently capture energy from the 
sun. The chemical industry will be the single greatest 
contributor to improving the health and life spans of the 
world's population. The chemical industry will play a critical 
role in empowering today's and future generations to live more 
sustainable lifestyles that will help conserve natural 
resources and enhance the quality of the global environment.
    I am confident that the leaders of ACC and the Members of 
Congress have a common objective. We want, to the greatest 
extent possible, ensure that U.S. companies, U.S. scientists 
and researchers and U.S. workers are developing the 
innovations, technologies and products that meet and respond to 
global demand and challenges. We are starting from a strong 
position. TSCA provides a strong foundation to buildupon. But 
we need a system that fully capitalizes on the advancements in 
science that will allow us to more effectively and efficiently 
assess and manage the risks of chemicals in commerce.
    We are committed to being a constructive force in achieving 
that goal. Thank you.
    [The prepared statement of Mr. Dooley follows:]

    [GRAPHIC] [TIFF OMITTED] T5224.050
    
    [GRAPHIC] [TIFF OMITTED] T5224.051
    
    [GRAPHIC] [TIFF OMITTED] T5224.052
    
    [GRAPHIC] [TIFF OMITTED] T5224.053
    
    [GRAPHIC] [TIFF OMITTED] T5224.054
    
    [GRAPHIC] [TIFF OMITTED] T5224.055
    
    [GRAPHIC] [TIFF OMITTED] T5224.056
    
    [GRAPHIC] [TIFF OMITTED] T5224.057
    
    [GRAPHIC] [TIFF OMITTED] T5224.058
    
    [GRAPHIC] [TIFF OMITTED] T5224.059
    
    Senator Lautenberg. Thank you very much, Mr. Dooley.
    Now we have Dr. Lynn Goldman, who is dean of the George 
Washington School of Public Health. Dr. Goldman was also the 
head of EPA's office that implements TSCA and other 
environmental health laws during the Clinton administration. We 
look forward to your testimony.

 STATEMENT OF LYNN R. GOLDMAN, M.D., M.P.H., DEAN, PROFESSOR, 
 ENVIRONMENTAL AND OCCUPATIONAL HEALTH, THE GEORGE WASHINGTON 
     UNIVERSITY SCHOOL OF PUBLIC HEALTH AND HEALTH SERVICES

    Dr. Goldman. Mr. Chairman and members of the Committee on 
Environment and Public Works, I thank you for this opportunity 
to testify about the Toxic Substances Control Act.
    As you know, I have written testimony that I would like to 
submit for the record. I think it is important that as 
everybody said here today, that chemicals play a vital in the 
United States and world economy, and to human welfare, and at 
the same time, that regulation is required to make sure that 
they are used safely.
    It is 35 years since the enactment of TSCA, and much has 
changed since that time, including much that has changed in the 
science and our understanding about the toxicology of 
chemicals. A fundamental overhaul of TSCA is well overdue, and 
I have described some points about that in detail in my written 
statement.
    To summarize, EPA needs to be able to assess and manage 
existing chemicals, but yet, their ability to do that has been 
hindered by an out of date statute that fails to provide the 
impetus for the generation of information about chemical 
hazards and exposures, and does not provide EPA with adequate 
tools to manage the risks.
    Also, TSCA does not give explicit recognition of unique 
exposures and susceptibilities of children and other vulnerable 
populations and of course, as a pediatrician, I have been 
particularly concerned about that.
    The current statute actually penalizes industry for 
studying chemical hazards, because it creates an undue 
advantage for a chemical about which we know nothing. If you 
learn something about the hazards of a chemical, there is a 
blemish on the record for that chemical. When you know nothing 
about the hazard, as has been already said, it is presumed to 
be safe.
    Now that the European Union has established its REACH 
legislation, our companies are generating massive quantities of 
information about chemicals that needs to be made available to 
the EPA for its assessment. As a former official in State 
government, I used to work for the State of California, I think 
that the confidential business information provisions that do 
not even give State authorities the ability to find out about 
names of chemicals and locations where they are manufactured 
certainly needs to be overhauled.
    Other positive developments have occurred since 1976. We 
now have a science of green chemistry that didn't even exist in 
1976, opening the possibilities for pollution prevention 
approaches that could be wrapped into TSCA. We could actually 
reward companies that do research and development and innovate 
and bring forth newer and safer alternatives. Also, we have 
newer approaches to toxicology, using computational methods 
that can predict risks, and with less costly procedures and 
procedures that were not even thought about in 1976.
    Likewise, in 1976, the United States was clearly in the 
lead. But now we have seen newer approaches in Canada and 
Europe and elsewhere that we need to look at very carefully.
    So last year, I got together with three other individuals 
who have been responsible for EPA's chemicals programs in the 
past, and we wrote a paper for the ABA. I have put that into 
the record. Two of them served under Republican 
administrations, one a career official who has been in many 
administrations, another who was in the Administration for 
President George W. Bush. It is interesting that we had 
fundamental agreement about a number of points.
    One is that we should take a very practical approach to the 
amendment of TSCA. We can look at statutes such as the Food 
Quality Protection Act, especially the safety standard in that 
statute. But we need to understand that for chemicals, we need 
to have flexibility and a prioritized system, so that we can 
reasonably address the tens of thousands of industrial 
chemicals.
    Second, EPA's TSCA program frankly has limited 
organizational capacity and limited resources, and that needs 
to be understood and addressed. Third, all chemicals are not 
created equally. We would hate to see a numbers game where all 
EPA has to do is run through a certain number every year, 
because of all the chemicals on the market, it is our belief 
that it is a small proportion, 5 or 10 percent of about 6,200 
that are actually produced in significant quantities that are 
of concern. EPA should be directed to put the first attention 
to those chemicals, rather than simply running through and 
getting numbers. Factors like exposures, use patterns, 
potential to cause cancer and other adverse effects, those are 
the kinds of factors that EPA should use to prioritize them.
    Fourth, certainly there is much in the current system that 
needs to be sustained and strengthened and not simply replaced 
with a new statute. Finally, the international management of 
chemicals needs to be understood, needs to be incorporated in 
any approach, that it is not only the fact that there is a 
REACH system, but also the globally harmonized system that has 
been developed, the global strategic approach to international 
chemicals management and conventions, such as the Stockholm 
Convention on Persistent Organic Pollutants, needs to be 
incorporated into a TSCA reform process.
    Finally, we would caution against efforts to prescribe how 
the regulatory science is conducted under TSCA. No matter how 
well motivated, science has a way of changing very quickly. 
TSCA has a way of changing very slowly. So we urge that 
Congress be very cautions about making any prescriptions to EPA 
about how to do the science, but rather to encourage EPA to 
keep pace with the sciences it develops.
    I think this is a pivotal time. When I look around this 
table, I am amazed to see the consensus among all of these 
parties, that this is a statute that needs to be reformed. I 
don't think that we have seen this before. So at this juncture, 
I think there is an opportunity for Congress to act. Not only 
the EPA, but also these stakeholder group who are at the table 
have brought forth principles for reform. All the principals 
don't say the same thing, but I think Congress could bring the 
parties together to craft a reasonable science-based and health 
protective overhaul of TSCA.
    Thank you very much.
    [The prepared statement of Dr. Goldman follows:]

    [GRAPHIC] [TIFF OMITTED] T5224.061
    
    [GRAPHIC] [TIFF OMITTED] T5224.062
    
    [GRAPHIC] [TIFF OMITTED] T5224.063
    
    [GRAPHIC] [TIFF OMITTED] T5224.064
    
    [GRAPHIC] [TIFF OMITTED] T5224.065
    
    [GRAPHIC] [TIFF OMITTED] T5224.066
    
    [GRAPHIC] [TIFF OMITTED] T5224.067
    
    [GRAPHIC] [TIFF OMITTED] T5224.068
    
    [GRAPHIC] [TIFF OMITTED] T5224.069
    
    [GRAPHIC] [TIFF OMITTED] T5224.070
    
    [GRAPHIC] [TIFF OMITTED] T5224.071
    
    [GRAPHIC] [TIFF OMITTED] T5224.072
    
    [GRAPHIC] [TIFF OMITTED] T5224.073
    
    [GRAPHIC] [TIFF OMITTED] T5224.074
    
    [GRAPHIC] [TIFF OMITTED] T5224.075
    
    [GRAPHIC] [TIFF OMITTED] T5224.076
    
    [GRAPHIC] [TIFF OMITTED] T5224.077
    
    [GRAPHIC] [TIFF OMITTED] T5224.078
    
    [GRAPHIC] [TIFF OMITTED] T5224.079
    
    [GRAPHIC] [TIFF OMITTED] T5224.080
    
    [GRAPHIC] [TIFF OMITTED] T5224.081
    
    [GRAPHIC] [TIFF OMITTED] T5224.082
    
    Senator Lautenberg. Thank you, Dr. Goldman. I thank each 
one of your for your testimony. In my view, I characterize it 
as excellent in highlighting the issues that we face as we try 
to reform TSCA.
    I welcome two colleagues who are here for their new 
membership to the committee, to the subcommittee. One of the 
things that I would like to establish before I enter my 
questions, and that is, as much as possible, I hope that we can 
enlist the support and not, I am not asking for a vote, 
positive vote, but I am asking my newer colleagues here on the 
committee to see if we can establish a dialog that has us 
engaged in serious discussion, not only when we are here in 
front of the public, but when we have a chance to discuss this 
privately.
    Anybody here who didn't hear me? If you didn't hear me, 
please let me know.
    Anyway, so I start, Dr. Goldman, with a question for you. 
You served as Assistant Administrator at EPA when a Republican 
Congress passed the Food Quality Protection Act to regulate 
pesticides. It was a Democrat President who signed it. Based on 
that experience, what do you think of the prospects for 
reforming TSCA in this divided Congress? You have had the 
experience of working with two sides of the aisle. We invite 
your comment.
    Dr. Goldman. I think it is very possible, and I think what 
happened during that period is instructive, in that the way 
that legislation was crafted is that while everybody had their 
principles that they brought to the table, that there needed to 
be a lot of discussion, a lot of give and take in the actual 
drafting of the legislation. We had legislation in the Food 
Quality Protection Act that passed unanimously through both 
houses of Congress. That only happened because of a lot of very 
hard work, which has happened, actually, in the case of 
chemicals reform. A lot of groundwork has been done, the fact 
that people have been giving it a lot of thought over many 
months. So I think there is reason to be hopeful for that.
    I think the other point that needs to be made is, I don't 
think there has been a time in history where enactment of 
environmental legislation has been done without considerable 
amount of bipartisan support. Environmental protection has 
always been a bipartisan issue, because hazards in the 
environment affect all of us. This is not actually a partisan 
issue at all, but more of an issue for the American people, for 
our industry, and for being able to both promote industrial 
development and all of the good things that we want to see with 
chemicals, while at the same time regulating that industry so 
that the public's health is protected.
    Senator Lautenberg. But how do you really feel about this?
    [Laughter.]
    Senator Lautenberg. Ms. Semrau, in the absence of a strong 
Federal framework, SC Johnson faces a patchwork, you indicated 
that, of sometimes inconsistent regulations from State and 
foreign governments. Fair to say that modernizing TSCA can set 
a strong kind of unified standard, Federal standard for safety 
that might not only be good for the people who buy your 
products, and apparently there are numerous of those, but also 
for the business opportunities that SC Johnson faces?
    Ms. Semrau. Mr. Chairman, consumer confidence is vital in 
the safety of chemicals that go into everyday products. Also, 
as you mentioned, the proliferation of a patchwork quilt of 
State regulations of chemical management programs, that causes 
unpredictability.
    So you are right in that, if we can boost consumer 
confidence, if we can get a modernized TSCA that clearly boosts 
the States' confidence, so that we don't have the 
proliferation. But as my colleagues have said today, we want to 
make sure it is risk-based, we make sure that innovation and 
green chemistry are heavily supported. We would also need true 
CBI, but we are very willing, as I have put in my written 
testimony, to move on CBI.
    Then the industry would need time to adapt to this new 
regulation.
    But clearly, Senator, those things really do affect the 
bottom line. So you are right in that, if we have more 
confidence, it does help the bottom line for companies like 
ours.
    Senator Lautenberg. We also can substantially, an 
observation I will make here, I come out of the corporate 
world, reduce costs for individuals and families and Government 
and treatment and disruption in life that comes with conditions 
that result from exposure to dangerous materials.
    Mr. Goldberg, like many large chemical manufacturers, BASF 
must comply with European and Canadian chemical laws that 
mandate much greater testing than is required under TSCA. Yet 
BASF earned record profits last year. That is a good 
accomplishment. We like to see that, because that also implies 
jobs, job availability in our Country.
    Do you think that TSCA can be modernized in a way that 
guarantees safety but allows companies like yours to continue 
to thrive and grow?
    Mr. Goldberg. Mr. Chairman, absolutely. I think that we 
would not be supporting TSCA modernization if we did not think 
BASF could thrive as a sustainable enterprise under a 
modernized TSCA. You are quite correct that we do comply with a 
variety of regulatory regimes around the world, with very 
different standards from time to time. BASF takes a global 
approach to the products we make and sell.
    Many of those regulatory schemes have pluses, but a lot of 
minuses, bureaucratic aspects and the like. I think we can 
learn from this and Congress can learn from this in developing 
a system that has the advantages, that is informed by much of 
the data that is being created, for example, under REACH, but 
at the same time provides the chance for innovation while 
protecting health and the environment.
    Senator Lautenberg. Mr. Dooley, the American Chemistry 
Council represents the largest chemical manufacturers in the 
Country. Under their leadership, ACC has issued 10 principles 
for modernizing TSCA, and supported reform in general. Are you 
prepared to share with us your specific ideas as needed for a 
workable chemicals management system? You outlined the steps 
that should be taken. How about information sharing to achieve 
that goal? Do you think your group is ready to impart the 
knowledge that they gain as they either have had experience in 
the past or are developing in the future?
    Mr. Dooley. Yes, Mr. Chairman, what we are absolutely 
committed to is being a constructive part of a bipartisan 
process in both the House and the Senate to effectively 
modernize TSCA. We are certainly prepared to offer our ideas 
and thinkings and learnings from our engagement, not only with 
TSCA, but with the Canadian plan as well as the REACH program 
that is in development.
    Senator Lautenberg. Thank you, very much, all of you. Some 
have suggested that the elections and the outcome diminished 
chances of fixing TSCA in this Congress. Can I ask for a very 
short statement for the record that, are you and your 
organization still committed, presently committed to working to 
modernize TSCA? Your testimony says it. Did I interpret it 
clearly?
    Ms. Semrau. Mr. Chairman, absolutely. From SC Johnson's 
point of view, there isn't a better time for the bipartisan 
effort to modernize TSCA.
    Senator Lautenberg. Mr. Goldberg.
    Mr. Goldberg. I would 100 percent agree with Ms. Semrau. I 
think this is an opportunity in this Congress, given the fact 
that it would have to be bipartisan to achieve effective 
modernization of TSCA that satisfies both the needs to 
strengthen the statute and preserve innovation.
    Senator Lautenberg. Ms. Beinecke, I am going to make it 
easy for you. Is protecting health, children's growth, reducing 
costs and the agony that comes with disease, is that a 
worthwhile mission, enough to be bipartisan? Or is that 
strictly the province of one party?
    Ms. Beinecke. I think it is clearly bipartisan, and we have 
examples all over the Country in many different States where 
there has been bipartisan, coming together to pass State laws. 
We certainly look forward to having that happen here in 
Congress as well, and look forward to working on it with you 
and other members of the committee.
    Senator Lautenberg. Thank you.
    Mr. Dooley.
    Mr. Dooley. As I stated in my written testimony and my oral 
testimony, we are committed to being a part of a bipartisan 
process to achieve modernization of TSCA.
    Senator Lautenberg. Dr. Goldman.
    Dr. Goldman. It can be done.
    Senator Lautenberg. I asked the question, liking the music 
I am hearing, and it was so good that I wanted it repeated.
    [Laughter.]
    Senator Lautenberg. Senator Johanns, take all the time you 
need for your questions.
    Senator Johanns. Thank you, Mr. Chairman.
    Dr. Goldman, maybe I will start on that side of the table 
and we can work our way down. We have certainly heard the 
criticism toward TSCA, kind of from all elements. I always look 
for a starting point. If we are going to redo TSCA, we should 
start with the notion that maybe there is something in TSCA 
that has worked, that was a step in the right direction, and 
that should not be thrown out.
    So where would you start there? What about TSCA has been a 
success story that we should consider incorporating, whatever 
the rewrite would turn out to be?
    Dr. Goldman. Thank you, Senator. I can name a few things 
that I think have actually worked fairly well. One certainly is 
the chemical inventory. Even though it hasn't been perhaps 
updated as frequently as many of us would like to, maybe it 
could have more information in it. That was a real step 
forward, establishing it. Everybody in the world wants one now, 
and that needs to be continued and sustained, probably 
improved.
    A second is EPA's new chemical review process. Even though 
it can be strengthened, it has been a good process. One of the 
great things that EPA has pioneered through that process is the 
use of structure activity modeling, which I happen to believe 
should be upgraded through the use of newer computational 
methods. But nonetheless, has been a really wonderful process.
    Something that EPA itself innovated was not in TSCA, but it 
has been able to do under, and ought to be really looked at 
carefully by Congress is the significant new use rule, which 
has been a wonderful way of managing the new uses of newer 
chemicals as they have come on the market, making sure that 
those uses are limited to the areas where those chemicals are 
going to be safe. Actually, as Mr. Dooley said, real looks 
carefully at the intended use for the chemical, not just the 
hazard of the chemical, but also the intended use of that 
chemical. It has worked very well.
    Senator Johanns. Before I go to Mr. Dooley, let me ask you 
also, when I hear 62,000 chemicals were grandfathered, I just 
go, my goodness. If you did a study on 62,000 chemicals, we 
would be here into the next century. Am I missing the point 
here? Give me your perspective on that. I can't imagine that we 
could empower EPA to review 62,000 chemicals in any kind of 
reasonable period of time.
    Dr. Goldman. I think when I talked about a need to have 
priority setting, and also tiering of evaluations, it was 
really to address that. Because it is not just the original 
62,000, but then it is the 24,000 that have come on the market 
since that time. So it is really a lot of chemicals.
    However, all of those are not being manufactured at all in 
this Country. Of those that are being manufactured, most of 
them are not being manufactured in significant quantities. 
There are really 6,200 where the quantities are fairly 
significant. Even that is the list where I think that EPA could 
prioritize the evaluation of those in order to go after the 
worst first.
    I don't think one would ever say that there would be 
chemicals that would be, if they are in active use, that would 
be on put on a shelf and EPA would never look at them. But I 
think it is very clear that there are some that are more 
deserving of immediate attention than others, and that Congress 
needs to point EPA in that direction to make sure it would 
happen that way.
    Senator Johanns. Mr. Dooley, I would like your 
observations. What in TSCA would the industry say was 
absolutely a step in the right direction?
    Mr. Dooley. I would associate myself with the remarks of 
Dr. Goldman, where she identified the new chemicals provisions 
of TSCA, Section 5. We think that has served consumers, it has 
served the industry and served the U.S. economy well. Clearly, 
when we look at the challenges of trying to maintain the U.S. 
competitiveness on the development of new innovations and 
technologies, we think we have a strong foundation in that new 
chemicals provisions of TSCA that really result in a 
collaborative effort between the private sector and Government 
and EPA, where we submit the data and respond to additional 
requests by EPA to ensure that they can make an appropriate 
determination on the assessment of the safety of those 
chemicals.
    So we think that is an integral component of any modernized 
TSCA, is that you don't want to throw the entire statute out. 
You want to keep those provisions that are working well, and 
certainly the new chemicals provision is what we think is 
working quite well.
    Senator Johanns. Ms. Beinecke, if you could give me your 
thoughts too on what has worked well in this. Then I would also 
like to have your sense of Dr. Goldman's testimony on the 
62,000 chemicals that you have mentioned. Is it 62,000 that you 
want me to worry about, or is it 6,200, or is it 620?
    Ms. Beinecke. Senator, first, having an inventory I think 
is very important. I think it has been important for the public 
to know what the range of chemicals are out there. The fact 
that they don't know that much about any of them or that the 
information has not been that readily available is a problem, 
and we hope that reform of TSCA will correct that. But knowing 
sort of the scale of the problem is important.
    To your question of 62,000 chemicals, no, we don't expect 
EPA to go one by one through the chemicals. I think there are 
classes of chemicals that there are concerns about, persistent 
chemicals, bioaccumulating chemicals, toxic chemicals, 
chemicals that are thought to be carcinogens or to cause 
reproductive health problems. I think that what you would do is 
create a set of criteria for what are the highest areas of 
concern and then what are the chemicals in those classes that 
need to be thoroughly assessed by EPA.
    Particularly one of the things we are asking for is that 
the industry really have the responsibility to demonstrate 
safety and provide the information and for EPA to evaluate 
that. Because I think we all fully understand that EPA will not 
have the capacity to do the kind of analysis in great detail on 
the number of chemicals that are in the marketplace. But 
because industry is putting them into the marketplace, it is 
really their responsibility, we would advocate it is their 
responsibility to provide that safety data for EPA to assess.
    Thank you.
    Senator Lautenberg. Thank you, Senator.
    Senator Whitehouse, welcome. You have your 5 minutes for 
questions, and we invite you to do that.
    Senator Whitehouse. Thank you, Mr. Chairman. Let me just 
begin by saying again how much I appreciate your leadership on 
this issue. It is a model for a new Senator like me of 
persistence, determination and the aggregation of expertise. It 
has been very important and I want you to know that for what it 
is worth, I do appreciate it very, very much.
    I would love to ask Ms. Beinecke, the environment that 
these changes will take place in is one in which a great 
majority, I would expect, of the chemical companies involved 
are either international companies already or are companies 
that have international markets. So they are not only obliged 
to meet American standards, they are also obliged to meet 
European and Canadian standards. European and Canadian 
governments appear to have run well ahead of us in modernizing 
their laws.
    At the same time, we have State regulatory authority as 
well, and in some cases the multiplicity of conflicting 
regulations creates an undue burden for the industry and 
situations that are very hard to reconcile. In other cases, a 
very pioneering and knowledgeable State can exercise real 
leadership that we don't want to discourage out of Washington. 
What thoughts do you have for us about how we can best be most 
effective in the context of those two concerns, the frontier of 
regulation moving ahead in Europe and Canada that is going 
forward without us, that we need to catch up with, and the 
preservation of room for our sovereign States to take 
reasonable steps to protect their constituents without creating 
a morass of overlapping and conflicting regulations?
    Ms. Beinecke. Senator, I think you have posed a challenging 
question, because clearly, I think one of the great challenges 
to the industry, and it would be worth asking them directly, is 
the multiplicity of regulations that they are under. There has 
been some discussion about that, Dr. Goldman particularly 
called out the need to put TSCA reform in the context of the 
globalized market and the changes that are happening more at 
the international level.
    At the same time, the fact is that 18 States have acted on 
toxic laws, 30 States are considering them while they wait for 
Congress to act. I think as far as protecting the American 
public goes, that is very, very important to assure the public 
that there will be action. I think that it will be a challenge 
for this committee to figure out, as you go forward, how to 
ensure that innovation can happen at the State level, that 
States particularly who have particular problems that they are 
concerned about within their own boundaries can take action 
early. Because one of the things that we have discovered with 
35 years of TSCA is that these chemicals haven't been 
evaluated, it takes a long time. Even with TSCA reform, things 
will take time to develop.
    So I think you cannot put States in a position of not 
acting to protect the people within their boundaries. But 
figuring out how to incentivize and how to provide some 
uniformity at the Federal level is certainly something that we 
are all looking forward to. I think that is why on this panel 
there is so much agreement that reforming TSCA is absolutely 
critical at this point because first of all, the public is very 
concerned, and there is a lack of consumer confidence in what 
their exposures are, but also because they are faced with 
multiple jurisdictions.
    Senator Whitehouse. In my remaining 40 seconds, would 
anybody else care to chime in?
    Senator Lautenberg. You can have more than that.
    Senator Whitehouse. Mr. Dooley.
    Mr. Dooley. Clearly, I would just like to address one 
issue, and Mr. Goldberg might want to comment on this. I think 
that what we are committed to is really developing the gold 
standard on chemicals management here in the United States. We 
hear a lot of talk about REACH, and in some ways, I think it is 
almost a myth here that REACH is a gold standard here. REACH is 
just in its infancy. Nobody knows how well it is going to work 
yet. It has had one data call-in that occurred in December. But 
industry nor the NGO community has any knowledge to date in 
terms of what is going to be the practical implications of its 
regulation of chemicals in commerce.
    So before we succumb to this idea that somehow we are 
falling behind on a regulatory construct because the EU has 
adopted REACH, we ought to step back and do a thorough 
evaluation of just what it has brought to the industry as well 
as the NGO community. I think that story remains to be told.
    But clearly I think that when we look at moving forward, we 
understand that we have to have a modernized system that is 
science-based, that is risk-based, that restores the public 
confidence in EPA's assessment of the safety of chemicals. If 
we do that, we will mitigate the need and the interest of State 
governments and local governments from promulgating their own 
approaches to chemical management. That is in the interest of 
the consumers, and that is clearly in the interest of industry.
    Senator Whitehouse. Thank you very much. Thank you, Mr. 
Chairman.
    Senator Lautenberg. At this point, I would ask you each to 
respond to any inquiries that you get. Dr. Goldman, I have the 
report from the committee, ABA, and their evaluation. They lead 
with the statement that what is open to debate, Congress, U.S. 
environment, EPA, business community environment, public health 
advocates of all varieties seem more committed now than ever to 
tackling the difficult task of amending TSCA. I hope that is 
right.
    I thank each one of you for your testimony and my 
colleagues here who joined in the hearing today. Thank you. 
This hearing is adjourned.
    [Whereupon, at 11:33 a.m., the committee was adjourned.]
    Additional material submitted for the record follows.]

       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma

    I would like to thank Senator Lautenberg for scheduling this 
important hearing to examine the effectiveness of the Toxic Substances 
Control Act, or TSCA. I want to thank him, and his staff, for 
continuing an important dialog with my staff on how to modernize TSCA. 
I will continue to work with him, and I hope that as we further define 
our principles, we can reach an agreement to develop a workable bill, 
one based on the best available science, one that protects human 
health, and one that balances the need to protect jobs and economic 
growth.
    Another important consideration is that we craft a bill that can 
pass both the House and Senate. This is an important test, because if 
we can't get the votes we need for a comprehensive solution, then we 
may have to consider alternative legislative options to address 
specific issues that might have broader bipartisan support. I hope 
today's hearing will help us identify some of those issues as we 
continue our dialog to modernize TSCA.
    We have an impressive witness list today, with experts from various 
backgrounds who can offer unique perspectives on TSCA and its 
implementation. An important issue for me, which I hope the witnesses 
will address, is TSCA's broad reach over chemical manufacturing, and 
its potential, and real, impacts on the economy. TSCA regulates the 
manufacturing, distribution, use, and disposal of chemicals--authority 
that covers thousands of transactions and decisions by thousands of 
people every day.
    Given this fact, we need to ensure that EPA is regulating properly. 
When we think about modernizing TSCA, several questions come to mind: 
Will reform allow EPA to foster, rather than stifle, innovation? Will 
reform inspire public confidence in EPA's decisions as well as the 
products industry produces? Will reform rely on the best available 
science? Will reform ensure EPA is protecting human health and the 
environment?
    These are fairly basic questions, but they must be answered, as we 
are dealing with a statute that is 35 years old, one passed before the 
myriad of innovations that have dramatically changed the chemical 
industry. It is time to bring TSCA into the 21st Century.
    That would certainly require legislation of some kind. As I have 
stated many times, modernization of TSCA should:
    be based on the best available science;
    use a risk-based standard for chemical reviews;
    include more rigorous cost-benefit requirements;
    protect proprietary information;
    reduce the likelihood of litigation;
    avoid compelling product substitution; and
    prioritize reviews for existing chemicals.
    I also look forward to working with EPA as we conduct oversight of 
the TSCA program. I want to thank Steve Owens for his testimony today, 
and his willingness to make his staff accessible to the committee as we 
seek greater understanding of EPA's path forward on TSCA 
implementation. There are certainly policy and legal issues on which we 
disagree, but the fact that we are working together inspires great 
confidence.
    I am glad to hear that in the House, Representative Shimkus, 
chairman of the Subcommittee on the Environment and Economy, has made 
TSCA oversight one of his top priorities. Representative Shimkus and I 
will no doubt work together to ensure the TSCA program is working 
effectively within the confines of the law.
    Again, I appreciate Senator Lautenberg's work on this issue and I 
look forward to hearing from the witnesses today on their constructive 
ideas for updating, improving, and modernizing our chemical safety 
laws.

[GRAPHIC] [TIFF OMITTED] T5224.083

[GRAPHIC] [TIFF OMITTED] T5224.084

[GRAPHIC] [TIFF OMITTED] T5224.085

[GRAPHIC] [TIFF OMITTED] T5224.086

[GRAPHIC] [TIFF OMITTED] T5224.087

[GRAPHIC] [TIFF OMITTED] T5224.088

[GRAPHIC] [TIFF OMITTED] T5224.089

[GRAPHIC] [TIFF OMITTED] T5224.090

[GRAPHIC] [TIFF OMITTED] T5224.091

[GRAPHIC] [TIFF OMITTED] T5224.092

[GRAPHIC] [TIFF OMITTED] T5224.093

[GRAPHIC] [TIFF OMITTED] T5224.094

[GRAPHIC] [TIFF OMITTED] T5224.095

[GRAPHIC] [TIFF OMITTED] T5224.096

[GRAPHIC] [TIFF OMITTED] T5224.097

[GRAPHIC] [TIFF OMITTED] T5224.098

[GRAPHIC] [TIFF OMITTED] T5224.099

[GRAPHIC] [TIFF OMITTED] T5224.100

[GRAPHIC] [TIFF OMITTED] T5224.101

[GRAPHIC] [TIFF OMITTED] T5224.102

[GRAPHIC] [TIFF OMITTED] T5224.103

[GRAPHIC] [TIFF OMITTED] T5224.104

[GRAPHIC] [TIFF OMITTED] T5224.105

[GRAPHIC] [TIFF OMITTED] T5224.106

[GRAPHIC] [TIFF OMITTED] T5224.107

[GRAPHIC] [TIFF OMITTED] T5224.108

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
